Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   CMS’S RELIANCE ON OHIO
 LICENSURE REQUIREMENTS DID
    NOT ALWAYS ENSURE THE
  QUALITY OF CARE PROVIDED
     TO MEDICAID HOSPICE
        BENEFICIARIES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-05-12-00086
                    Office of Inspector General
                                    https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 CMS’s reliance on Ohio licensure requirements did not always ensure the quality of care
 provided to Medicaid hospice beneficiaries.

WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. Hospices must comply with
Federal and State requirements to ensure that hospice care is furnished by qualified workers.
Prior Office of Inspector General (OIG) reviews of personal care services (PCS) found that
services were provided by PCS attendants who did not meet State qualification requirements.
OIG is performing reviews in various States to determine whether similar vulnerabilities exist at
hospices.

The objective of this review was to determine whether the Centers for Medicare & Medicaid
Services’ (CMS) reliance on Ohio licensure requirements for hospice workers ensured quality of
care and that adequate protection was provided to Medicaid hospice beneficiaries.

BACKGROUND

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

In Ohio, the Department of Job and Family Services (State agency) administers its Medicaid
program in accordance with a CMS-approved State plan. The State plan establishes what
services the Medicaid program will cover, including hospice care when it is provided by a
licensed hospice.

A Medicaid participating hospice must meet the Medicare conditions of participation for
hospices, one of which requires a hospice to be licensed if State or local law provides for
licensing of hospices. Hospice providers that fail to meet conditions of participation may be
required to enter into a plan of correction or be subject to termination from the Medicare and
Medicaid programs. However, a hospice provider may not be subject to disallowance of past
claims if found to be noncompliant or deficient with standards in the conditions of participation.
CMS relies on the States to license hospices within their jurisdictions. In Ohio, hospice licenses
are approved and issued by the Ohio Department of Health. To be licensed, hospices must
comply with certain hospice worker requirements.

Qualified individuals must provide hospice care services in accordance with Federal and State
regulations. Hospice care services include, but are not limited to, nursing care, home health aide
services, physical therapy, social worker services, and spiritual care. When hospice care is
furnished to an individual residing in a nursing facility, hospice care payments include payments
for room and board in addition to hospice care services.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                     i
When a beneficiary is eligible for both Medicare and Medicaid (dually eligible) and elects the
hospice benefit, Medicare pays for the hospice care services, and Medicaid pays for the room
and board portion only. Hospice workers provide direct care to dually eligible beneficiaries and
affect the quality of care provided to these beneficiaries.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims of $100 or more paid to Ohio hospices during
the 2-year period July 1, 2009, through June 30, 2011. For this report, we will refer to Medicaid
costs for room and board or hospice care services, or both, paid for one beneficiary during a
month as a claim. From a total of 103,668 hospice claims, we reviewed a random sample of 100
claims. We reviewed 94 claims for room and board, 3 claims for hospice care services, and 3
claims for both room and board and hospice care services. For those 100 claims, we reviewed
the qualifications of 716 corresponding hospice workers from 48 hospices who provided direct
care to the Medicaid beneficiaries during the month.

WHAT WE FOUND

CMS’s reliance on Ohio licensure requirements did not always ensure quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries. We determined that
hospices did not always meet State hospice licensure requirements related to hospice workers.
Of the 100 claims that we sampled, 15 involved direct care provided by unqualified hospice
workers. On the basis of these sample results, we estimated that 15,550 of the 103,668 claims
covered by our review were associated with unqualified hospice workers.

For the 15 claims that involved direct care provided by unqualified hospice workers (3 of which
had more than 1 type of deficiency), the following licensure requirements were not met:

    •   background check requirement not met (11 claims),

    •   tuberculosis test requirement not met (4 claims),

    •   training requirements not met (2 claims),

    •   performance evaluation requirement not met (1 claim), and

    •   written job description requirement not met (1 claim).

For Medicaid, only hospice care services payments associated with unqualified hospice workers
are affected, not room and board payments. Because all 15 claims were room and board
payments, we did not estimate the effect on Medicaid payments during the audit period.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                    ii
WHAT WE RECOMMEND

To improve protection provided to Medicaid hospice beneficiaries, we recommend that CMS:

    •   work with the State agency and the Ohio Department of Health to ensure that hospices
        meet the State licensure requirements for hospice workers and

    •   consider working with the State agency to modify the State agency’s hospice payment
        conditions by implementing provisions similar to the State licensure requirements for
        hospice workers.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.

CMS COMMENTS

In written comments on our draft report, CMS generally agreed with our first recommendation.
Specifically, CMS stated that it will “discuss the report findings with the State Survey agency
and the Ohio surveyors to ensure that the requirement for a criminal background check is
completed by the agency and that all hospice workers receive initial and ongoing training to
perform their duties.” CMS concurred with our second recommendation.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                  iii
                                                    TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                The Medicaid Program: How It Is Administered ................................................ 1
                Hospices Provide Care to Terminally Ill Patients ................................................. 2

          How We Conducted This Review..................................................................................... 2

FINDINGS…. ............................................................................................................................... 3

          Licensure Requirements for Hospice Workers Were Not Always Met ............................ 3
                 Hospices Did Not Meet the Background Check Requirement for Workers ......... 3
                 Hospices Did Not Meet the Tuberculosis Test Requirement for Workers ........... 4
                 A Hospice Did Not Meet the Training Requirement for Workers........................ 4
                 A Hospice Did Not Meet the Performance Evaluation Requirement
                   for One Worker .................................................................................................. 4
                 A Hospice Did Not Meet the Written Job Description Requirement
                   for One Worker .................................................................................................. 4
          CMS’s Reliance on Ohio Licensure Requirements for Hospice Workers Did Not
            Always Ensure the Quality of Care Provided to Medicaid Beneficiaries ...................... 4

RECOMMENDATIONS .............................................................................................................. 5

STATE AGENCY COMMENTS ................................................................................................. 5

CMS COMMENTS ...................................................................................................................... 5

OTHER MATTERS...................................................................................................................... 5

APPENDIXES

          A: Audit Scope and Methodology ................................................................................... 7

          B: Statistical Sampling Methodology .............................................................................. 9

          C: Sample Results and Estimates ................................................................................... 10

          D: State Regulations for Hospice Workers .................................................................... 11

          E: State Agency Comments ........................................................................................... 13

          F: CMS Comments…………………………………………………………………….14


CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                                                                    iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. Hospices must comply with
Federal and State requirements to ensure that hospice care is furnished by qualified workers.
Prior Office of Inspector General (OIG) reviews of personal care services (PCS) found that
services were provided by PCS attendants who did not meet State qualifications requirements. 1
OIG is performing reviews in various States to determine whether similar vulnerabilities exist at
hospices.

OBJECTIVE

Our objective was to determine whether the Centers for Medicare & Medicaid Services’ (CMS)
reliance on Ohio licensure requirements for hospice workers ensured quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the Medicaid program. In Ohio, the
Department of Job and Family Services (State agency) administers its Medicaid program in
accordance with a CMS-approved State plan. The State plan establishes which services the
Medicaid program will cover, including hospice care when it is provided by a licensed hospice.

A Medicaid participating hospice must meet the Medicare conditions of participation for
hospices and have a valid provider agreement to provide hospice care (State Medicaid Manual
§ 4305). One of the conditions of participation requires a hospice to be licensed if State or local
law provides for licensing of hospices (42 CFR § 418.116). Hospice providers that fail to meet
conditions of participation in 42 CFR part 418 may be required to enter into a plan of correction
or be subject to termination from the Medicare and Medicaid programs. However, a hospice
provider may not be subject to disallowance of past claims if found to be noncompliant or
deficient with standards in the conditions of participation. CMS relies on the States to license
hospices within their jurisdictions. In Ohio, hospice licenses are approved and issued by the
Ohio Department of Health. To be licensed, hospices must comply with certain hospice worker
licensure requirements.

When hospice care is furnished to an individual residing in a nursing facility, hospice care
payments include payments for room and board in addition to hospice care services. If a
beneficiary is eligible for both Medicare and Medicaid (dually eligible) and elects the hospice

1
 U.S. Department of Health and Human Services, OIG, portfolio entitled Personal Care Services: Trends,
Vulnerabilities, and Recommendations for Improvement, issued November 15, 2012.


CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                         1
benefit, Medicare pays for the hospice care services, and Medicaid pays for the room and board
portion only. Hospice workers provide direct care to dually eligible beneficiaries and affect the
quality of care provided to these beneficiaries.

Hospices Provide Care to Terminally Ill Patients

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. An individual is considered to be
terminally ill if the individual has a medical prognosis that his or her life expectancy is 6 months
or less if the illness runs its normal course. Hospice care can be provided to individuals in a
home, hospital, nursing home, or hospice facility.

Qualified individuals must provide hospice care services in accordance with Federal and State
regulations. Hospice care services include, but are not limited to, nursing care, home health aide
services, physical therapy, social worker services, and spiritual care.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims 2 of $100 or more paid to Ohio hospices
during the 2-year period July 1, 2009, through June 30, 2011. From a total of 103,668 claims,
we reviewed a random sample of 100 claims. A claim represented the Medicaid costs for room
and board or hospice care services, or both, paid for one beneficiary during a month. 3 For these
100 claims, we reviewed the qualifications of 716 corresponding hospice workers from 48
hospices who provided direct care to the Medicaid beneficiaries during the month.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
sample design and methodology, and Appendix C contains our sample results and estimates.
Appendix D contains excerpts from the applicable State regulations.




2
 For this report, we will refer to Medicaid costs for room and board or hospice care services, or both, paid for one
beneficiary during a month as a claim.
3
 We reviewed 97 claims for room and board and 6 claims for hospice care services. The total exceeds 100 because
3 claims were for both room and board and hospice care services.



CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                                       2
                                                  FINDINGS

CMS’s reliance on Ohio licensure requirements did not always ensure quality of care and that
adequate protection was provided to Medicaid hospice beneficiaries. We determined that
hospices did not always meet State hospice licensure requirements related to hospice workers.
Of the 100 claims that we sampled, 15 involved direct care provided by unqualified hospice
workers. On the basis of these sample results, we estimated that 15,550 of the 103,668 claims
covered by our review were associated with unqualified hospice workers.

LICENSURE REQUIREMENTS FOR HOSPICE WORKERS
WERE NOT ALWAYS MET

Of the 100 claims that we sampled, 15 involved direct care provided by workers at hospices that
did not meet 1 or more of the State’s licensure requirements for hospices. For this report, we
refer to these hospice workers as unqualified. The table below summarizes, by licensure
requirement, the number of sampled claims associated with the deficiencies that we identified.

          Table 1: Summary of Sampled Claims Associated With Unqualified Workers

                                                                            Number of
                               Type of Deficiency                         Claims Affected
               Background check requirement not met                             11
               Tuberculosis test requirement not met                             4
               Training requirement not met                                      2
               Performance evaluation requirement not met                        1
               Written job description requirement not met                       1

On the basis of these sample results, we estimated that 15,550 of the 103,668 claims covered by
our review were associated with unqualified hospice workers.

The 15 sampled claims that involved direct care provided by unqualified hospice workers were
for room and board only, with Medicare covering the corresponding hospice care service claims.
For Medicaid, only hospice care services payments associated with unqualified hospice workers
are affected, not room and board payments. Because all 15 claims were room and board
payments, we did not estimate the effect on Medicaid payments during the audit period.

Hospices Did Not Meet the Background Check Requirement for Workers

For 17 hospice workers associated with 11 sampled claims, hospices did not ensure that a
background check was completed in compliance with the State licensure requirements. For 11
hospice workers associated with 8 sampled claims, a background check was not completed
before the claim-month. For six hospice workers associated with the remaining three sampled
claims, a fingerprint impression was not completed. State regulations 4 specify that a background

4
    Chapter 3701-19-09(G) of the Ohio Administrative Code.



CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                    3
check and a fingerprint impression shall be completed for all workers in a position that involves
providing direct care to an older adult. 5

Hospices Did Not Meet the Tuberculosis Test Requirement for Workers

For four hospice workers associated with four sampled claims, hospices did not ensure that a
tuberculosis test was completed in compliance with the State licensure requirements. 6
Specifically, hospices either did not maintain documentation or did not perform a timely
tuberculosis test for workers.

A Hospice Did Not Meet the Training Requirement for Workers

For four hospice workers associated with two sampled claims, we could not determine whether
the workers attended training because the hospice did not maintain any training documents in
these employees’ files. State regulations specify that all hospice workers shall attend ongoing
training programs to assure maintenance of appropriate skill levels. 7

A Hospice Did Not Meet the Performance Evaluation Requirement for One Worker

For one hospice worker associated with one sampled claim, the hospice did not document the
performance evaluation. State regulations specify that hospice providers must evaluate the
performance of each staff member regularly. 8

A Hospice Did Not Meet the Written Job Description Requirement for One Worker

For one hospice worker associated with one sampled claim, a job description listing the hospice
worker’s duties was not available. State regulations specify that each worker shall have an
accurate written job description. 9

CMS’S RELIANCE ON OHIO LICENSURE REQUIREMENTS FOR HOSPICE
WORKERS DID NOT ALWAYS ENSURE THE QUALITY OF CARE PROVIDED TO
MEDICAID BENEFICIARIES

CMS relied on State licensure requirements for hospices. However, we found that in some cases
hospices did not meet certain State licensure requirements for employee background checks,
tuberculosis tests, training, performance evaluations, and job descriptions. CMS’s reliance on
the licensure requirements did not always ensure quality of care and that adequate protection was


5
    State regulations define “older adult” as a person aged 60 or older.
6
    Chapter 3701-19-09(B)(4)(c) of the Ohio Administrative Code.
7
    Chapter 3701-19-09(E) of the Ohio Administrative Code.
8
    Chapter 3701-19-09(F) of the Ohio Administrative Code.
9
    Chapter 3701-19-09(B) of the Ohio Administrative Code.


CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                    4
provided to Medicaid beneficiaries. Hospices are licensed in accordance with State regulations,
and hospices are expected to comply with those regulations.

The effect of the deficiencies that we identified was that hospices could not be sure that hospice
workers were free of health conditions that might have created a hazard for the Medicaid
beneficiaries. Further, hospices could not always demonstrate that the workers met certain State
requirements, such as background check or training requirements.

                                          RECOMMENDATIONS

To improve protection provided to Medicaid hospice beneficiaries, we recommend that CMS:

       •   work with the State agency and the Ohio Department of Health to ensure that hospices
           meet the State licensure requirements for hospice workers and

       •   consider working with the State agency to modify the State agency’s hospice payment
           conditions by implementing provisions similar to the State licensure requirements for
           hospice workers.

                                     STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency’s comments are included in their entirety as Appendix E.

                                             CMS COMMENTS

In written comments on our draft report, CMS generally agreed with our first recommendation.
Specifically, CMS stated that it will “discuss the report findings with the State Survey agency
and the Ohio surveyors to ensure that the requirement for a criminal background check is
completed by the agency and that all hospice workers receive initial and ongoing training to
perform their duties.” CMS concurred with our second recommendation. CMS’s comments are
included in their entirety as Appendix F.

                                             OTHER MATTERS

State regulations define a hospice aide to be “a home health aide who has successfully completed
training and a competency evaluation program … [and] … is currently listed in good standing on
the State Nurse Aide Registry, 10 and is employed by a hospice care program.” 11 State
regulations also specify that any staff member, including a volunteer, who functions in a
professional capacity shall meet the standards applicable to that profession, including but not

10
  The Nurse Aide Registry keeps track of those individuals who have met written and skills test criteria to be
certified for employment in long-term care settings, usually nursing homes. The registry also maintains records of
those nurse aides who have had a finding of abuse, neglect, or misappropriation of property against them.
11
     Chapter 3701-19-01(H) of the Ohio Administrative Code.



CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                                     5
limited to possessing current Ohio licensure, registration, or certification. 12 However, Ohio does
not require a home health aide to be a registered State-tested nurse aide.

Of the 716 hospice workers reviewed for our sampled hospice claims, 169 were home
health/hospice aides. Our review noted that 16 of the 169 aides related to 7 claims were not in
good standing on the State Nurse Aide Registry. Because Ohio does not require a home health
aide to be a registered State-tested nurse aide, we did not take exception to claims associated
with aides identified as not in good standing. However, Medicaid hospice beneficiaries would
benefit from receiving care only from aides in good standing on the State Nurse Aide Registry.




12
     Chapter 3701-19-09(A) of the Ohio Administrative Code.


CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                      6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For the audit period July 1, 2009, through June 30, 2011, we limited our review to Medicaid
payments that the State agency made to hospice providers for hospice care provided to Medicaid
beneficiaries as authorized under the State plan. We excluded claims in which the paid amount
was less than $100. 13

We determined that the State processed and paid 103,668 Medicaid claims totaling $387,987,282
($281,895,275 Federal share) for hospice care services during the audit period. We reviewed a
random sample of 100 claims.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork from January through March 2013 at 48 hospices throughout Ohio.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal and State laws, regulations, and guidance;

     •   held discussions with State agency officials to gain an understanding of the State
         agency’s hospice program;

     •   obtained Medicaid paid claims for hospice services provided during the audit period from
         the State agency;

     •   identified a sampling frame of 103,668 claims, totaling $387,987,282 ($281,895,275
         Federal share);

     •   selected a random sample of 100 claims from our sampling frame and, for each claim,
         obtained and reviewed the related hospice documentation to determine whether hospice
         workers who provided direct care to the beneficiaries in our sample of claims were
         qualified in accordance with State requirements; and

     •   estimated the number of claims that were associated with at least 1 unqualified hospice
         worker in the sampling frame of 103,668 claims.




13
  For this report, we will refer to Medicaid costs for room and board or hospice care services, or both, paid for one
beneficiary during a month as a claim.


CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                                        7
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                   8
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid payments of $100 or more for one beneficiary during a
month that the State made to hospices for care provided from July 1, 2009, through June 30,
2011, for which the State claimed Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a data file provided by the State agency containing 103,668 Medicaid
payments of $100 or more for 1 beneficiary during a month paid to hospices during the audit
period for hospice services totaling $387,987,282 ($281,895,275 Federal share).

SAMPLE UNIT

The sample unit was a claim (which in this report we are using to describe Medicaid costs for
room and board or hospice care services, or both, paid for one beneficiary during a month).

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

We used the OIG, Office of Audit Services, statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame. After generating the random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We estimated the number of claims affected by unqualified hospice workers using the point
estimate.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                  9
                   APPENDIX C: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

           Table 2: Hospice Claims Associated With Unqualified Hospice Workers

                                                                 Number of Claims
                                                                  Associated With
                     Frame Size             Sample Size         Unqualified Workers
                      103,668                  100                       15

SAMPLE ESTIMATES

                              Estimated Number of Hospice Claims
                              Associated With Unqualified Workers
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                     Point estimate           15,550
                                      Lower limit              9,830
                                      Upper limit             22,962




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)      10
           APPENDIX D: STATE REGULATIONS FOR HOSPICE WORKERS

Pursuant to Ohio Administrative Code 3701-19-09, General Requirements for Hospice Program
Personnel:

   (A) Each hospice care program shall utilize personnel that have appropriate training and
      qualifications for the services that they provide. Any staff member, including a volunteer,
      who functions in a professional capacity, shall meet the standards applicable to that
      profession, including but not limited to possessing current Ohio licensure, registration, or
      certification, if required by law, and practicing within the applicable scope of practice.

   (B) The hospice care program shall provide each staff member, including volunteer and
       contracted staff members, with a written job description delineating his or her
       responsibilities. The program shall assure that all staff members, including volunteers,
       provide services to hospice patients and their families in compliance with all of the
       following standards:

       (1) Services are provided in accordance with the patients’ plans of care;

       (2) Services are provided in accordance with the policies and procedures developed by the
           interdisciplinary team;

       (3) Services are provided in accordance with current and accepted standards of practice;

       (4) Services are provided by staff members who comply with the program’s employee
           health policies; and

                 (a) The hospice care program shall have a written plan to ensure the health and
                     safety of hospice patients that includes policies and procedures regarding
                     screening of staff for communicable diseases.

                (b)   The hospice care program shall have written policies and procedures
                      regarding measures taken to prevent staff with direct hospice patient contact
                      who have been diagnosed with a communicable disease from transmitting
                      this disease to patients, care givers or other staff. The policies shall indicate
                      when infected or ill staff must not render direct patient care.

                (c)   The hospice care program shall document, as applicable, compliance with
                      U.S. Department of Labor’s occupational safety and health administration
                      (OSHA), U.S. Centers for Disease Control and Prevention (CDC) and
                      applicable Ohio Department of Health standards concerning health
                      requirements for staff provision of services in health care settings, including
                      requirements for maintaining tuberculosis control.

       (5) All services are documented in the patient’s central clinical record.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                          11
   (C) Each hospice care program shall ensure that all personnel treat each patient and his or her
       property with respect, not abuse or neglect patients, and not misappropriate a patient’s
       property.

   (D) Each hospice care program shall employ personnel without discrimination on the basis of
      sex, age, race, creed, national origin, or handicap.

   (E) Each hospice care program shall provide an ongoing training program for its personnel,
       including volunteers.

   (F) Each hospice care program shall evaluate the performance of each staff member regularly.

   (G) Except as provided in Chapter 3701-13 of the Administrative Code, no hospice care
      program shall employ a person who applies on or after January 27, 1997, for a position
      that involves the provision of direct care to an older adult, if the person:

       (1) Has been convicted of or pleaded guilty to an offense listed in division (C)(1) of
           section 3712.09 of the Revised Code; or

       (2) Fails to complete the form(s) or provide fingerprint impressions as required by division
           (B)(3) of section 3712.09 of the Revised Code.

Pursuant to Ohio Administrative Code 3701-13-01, Hiring of Direct-Care Provider Employees,
Definitions, (K), “older adult” means a person aged 60 or older.

Pursuant to Ohio Administrative Code 3701-19-01, Hospice Care Programs, Definitions,

        (G) “Home health aide” means an individual who, in accordance with rule 3701-19-16 of
        the Administrative Code, provides home care services for hospice patients and their
        families.

        (H) “Hospice aide” means a home health aide who has successfully completed a training
        and competency evaluation program approved by the director under division (A) of
        section 3721.31 of the Revised Code and Chapter 3701-18 of the Administrative Code, is
        currently listed in good standing on the state nurse aide registry, and is employed by a
        hospice care program.




CMS’s Reliance on Ohio Licensure Requirements of Hospice Workers (A-05-12-00086)                      12
                            APPENDIX E: STATE AGENCY COMMENTS 



                                Department of
     Ohio                       Medicaid
                                John R. Kaslch. Governor
                                John B . McCarthy, Direc tor



   April28, 2014

   Ms. Sheri L. Fulcher 

   Office of Audit Services, Region VI 

   233 North Michigan, Suite 1360 

   Chicago, IL 6060 I 



   Re: Report Number A-05-12-00086

   Dear Ms. Fulcher,

   Please accept this letter as Ohio's response to the draft OIG Audit report listed above. Ohio concurs with the
   recommendations identified in the report. Ohio's response is included below.

   Ohio agrees with the recommendations included in the audit report titled "CMS's Reliance on Ohio Licensure
   Requirements Did Not Always Ensure the Quality ofCare Provided to Medicaid Hospice Beneficiaries" (Report Number
   A-05-12-00086). Ohio accepts the recommendations included in this report. Ohio' reply is included below.

   Recommendation: To improve protection provided to Medicaid hospice beneficiaries, we recommend that CMS :
           • 	 work with the State agency and the Ohio Department of Health to ensure that hospices meet the State
               licensure requireme nts for hospice workers and
           • 	 consider working with the State agency to modify the state agency's hospice payment conditions by
               implementing provisions similar to the State licensure requirements for hospice workers.

   Nature of corrective action: Ohio will work with CMS and the Ohio Department of Health to amend Ohio's state plan if
   required to implement recommendations included in Report Number A-05-12-00086.


   Thank you for your report. We appreciate the recommendations and look forward to collaborating with you on
   future endeavors.

   Sincerely,

 ~(b. (Y\(I{'Oft)J~
   _h,n'rl B. McCarthy 

   State Medicaid Director 




                                                      50W.Town Street, Suite 400
                                                        Columbus, Ohio 43215

                                           All Equ31 0pp0t1un.ly Employer and SDrYice Provider




C.MS's Reliance on Ohio Licensure Requirements ofHospice Workers (A-05-12-00086)                                          13
                                        APPENDIX F: CMS COMMENTS 


   ~·'"4
  ( ,r
         .f
       --~,.,._,
                    DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services



   '·..... ~                                                                                Administrator
                                                                                            Washington. DC 20201




                   DATE:          JU L 17 2014

                   TO:


                   FROM:


                   SUBJECT:      Office of Inspector General (OIG) Draft Report: "CMS's Reliance on Ohio
                                 Licensure Requirements Did Not Always Ensure the Quality ofCare Provided to
                                 Medicaid Hospice Beneficiaries," (A-05-12-00086)

                   The Centers for Medicare & Medicaid Services (CMS) would like to thank OIG for the
                   opportunity to review and comment on the above-referenced O IG draft report. OIG' s objective
                   was to determine if CMS's reliance on Ohio licensure requirements for hospice workers ensured
                   quality ofcare and that adequate protection was provided to Medicaid hospice beneficiaries.

                   The OIG found that CMS's reliance on Ohio licensure requirements did not always ensure
                   quality ofcare and that adequate protection was provided to Medicaid hospice beneficiaries.
                   Also, OlG determined that hospices did not always meet state hospice licensure requirements
                   related to hospice workers. Of the I 00 claims that OIG sampled, 15 involved direct care
                   provided by unqualified hospice workers. On the basis of these sample results, O IG estimated
                   that 15,550 ofthe I 03,668 claims covered by their review were associated with unqualified
                   hospice workers.

                   For the 15 claims that involved direct care provided by unqualified hospice workers, (three of
                   which had more than one type of deficiency), the following licensure requirements were not met:
                   (1) Background check requirement (I I claims); (2) Tuberculosis test requirement (four claims);
                   (3) Training requirements (two claims); (4) Performance evaluation requirement (one claim); and
                   (5) Written job description requirement (one claim).

                   Ol G Recommendation

                   The OIG recommends that CMS work with the State Agency and the Ohio Department of Health
                   to ensure that hospices meet the State licensure requirements for hospice workers.

                   CMS Response

                   The CMS does not have the authority to enforce state licensure and/or registration requirements,
                   and CMS also does not have a specific Condition of Participation that addresses state
                   requirements for the licensure and/or registration of non-professional personnel. However, there
                   is a specific regulation at 42 CFR 418 .114(d) that the hospice obtain a criminal background




C.MS's Reliance on Ohio Licensure Requirements ofHospice Workers (A-05-12-00086)                                                       14
             Page 2 - Daniel R. Levinson

             check on all personnel providing direct care or having access to patient records in the hospice.
             While CMS does not have authority over state licensure/registration requirements, CMS will
             discuss the report findings with the State Survey Agency and the Ohio surveyors to ensure that
             the requirement for a criminal background check is completed by the agency and that all hospice
             workers receive initial and ongoing training to perform their duties.

             OIG Recommendation

             The OIG recommends that CMS consider working with the State agency to modify the State
             Agency's hospice payment conditions by implementing provisions similar to the State licensure
             requirements for hospice workers.

             CMS Response

             The CMS concurs with OIG' s recommendation. While CMS does not have authority over state
             licensure/registration requirements, CMS will request information and discuss further with the
             state agency.

             The CMS thanks OIG for their efforts on this issue and looks forward to working with OIG on
             this and other issues in the future.




C.MS's Reliance on Ohio Licensure Requirements ofHospice Workers (A-05-12-00086)                                15
